FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CHAUNTEL JACKSON,
Plaintiff-Appellant,
v.
TRANSPORTATION SECURITY
ADMINISTRATION,
Defendant-Appellee.

)
)
)
)
)
)
)
)
)
)
)

Jun 25, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: CLAY, Circuit Judge.
Chauntel Jackson, an Ohio resident proceeding pro se, moves this Court to grant her
permission to proceed in forma pauperis in her appeal from the district court’s judgment
dismissing her complaint pursuant to 28 U.S.C. § 1915(e).
On July 23, 2019, Jackson filed this lawsuit against her former employer, the
Transportation Security Administration (“TSA”), alleging that the federal agency racially
discriminated against, relentlessly harassed, and retaliated against her; and also subjected her to
workplace isolation. She alleged that the TSA covered up those illegal actions. Jackson further
alleged that those adverse actions forced her to resign from the TSA in April 2016, and that she
was subsequently “in [Equal Employment Opportunity Commission] proceedings until August of
2018.” She sought pecuniary damages.
On initial screening, the district court construed Jackson’s complaint as raising claims
under Bivens v. Six Unknown Named Agents of Federal Bureau of Narcotics, 403 U.S. 388 (1971),
and Title VII of the Civil Rights Acts of 1964, 42 U.S.C. § 2000e et seq., and dismissed the
complaint under § 1915(e) for failing to state a claim upon which relief could be granted.
Specifically, the district court determined that Jackson: (1) could not assert a Bivens claim against

No. 20-3097
-2-

a federal agency; (2) failed to satisfy the statutory prerequisites for bringing a Title VII claim in
federal court; and (3) failed to allege facts that establish a prima facie case of race discrimination.
The district court further certified, pursuant to 28 U.S.C. § 1915(a)(3), that an appeal from its
decision could not be taken in good faith.
Where, as here, a district court certifies that a pro se plaintiffs appeal is not taken in good
faith, the plaintiff may file a motion in this Court for leave to proceed in forma pauperis. Fed. R.
App. P. 24(a)(5). This Court will grant an in forma pauperis motion only if it is persuaded that
the appeal is being taken in good faith, i.e., that the issues to be raised are not frivolous. See
Coppedge v. United States, 369 U.S. 438, 445 (1962). An appeal is frivolous if it lacks an arguable
basis in law or fact. See Neitzke v. Williams, 490 U.S. 319, 325 (1989). Accordingly, this Court
will grant an in forma pauperis motion only where the claims on appeal deserve "further argument
or consideration." Coppedge, 369 U.S. at 454.
For the reasons stated by the district court, it appears that Jackson’s appeal lacks an
arguable basis in law. Accordingly, the motion to proceed in forma pauperis is DENIED. Unless
Jackson pays the $505 filing fee to the district court within thirty days of the entry of this order,
this appeal will be dismissed for want of prosecution.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

No. 20-3097
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CHAUNTEL JACKSON,
Plaintiff-Appellant,

v.
TRANSPORTATION SECURITY ADMINISTRATION
Defendant-Appellee.

FILED

Jun 17, 2021
DEBORAH S. HUNT, Clerk

)
)
)
)
)
)
)
)
/
)
)
)

ORDER

BEFORE: COLE, GILMAN and McKEAGUE, Circuit Judges.

The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

NOT RECOMMENDED FOR PUBLICATION
No. 20-3097

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
CHAUNTEL JACKSON,
Plaintiff-Appellant,
v.
TRANSPORTATION SECURITY
ADMINISTRATION,
Defendant-Appellee.

Apr 19, 2021
DEBORAH S. HUNT, Clerk

)
)
)

)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF
OHIO

)
)
)

ORDER

Before: COLE, Chief Judge; GILMAN and McKEAGUE, Circuit Judges.

Chauntel Jackson, a pro se Ohio plaintiff, appeals the district court’s judgment sua sponte
dismissing her federal employment-discrimination complaint, filed under Title VII of the Civil
Rights Act of 1964, 42 U.S.C. § 2000e, et seq., pursuant to 28 U.S.C. § 1915(e)(2) for failure to
state a claim on which relief may be granted. This case has been referred to a panel of the court
that, upon examination, unanimously agrees that oral argument is not needed. See Fed. R. App.
P. 34(a).
The Transportation Security Administration (TSA) employed Jackson as a traveldocument checker from March 2013 to April 2016. In January 2016, TSA terminated Jackson for
committing security violations and unprofessional conduct. Jackson appealed her termination, and
in April 2016, the TSA Office of Professional Responsibility Appellate Board found that
management had not proven the alleged violations by a preponderance of the evidence and
reinstated Jackson to her position. But believing that the employer-employee relationship had
been irretrievably broken, Jackson voluntarily resigned shortly thereafter.

No. 20-3097
-2In July 2019, Jackson filed a Title VII employment-discrimination complaint against TSA
in the district court, claiming that she had been illegally terminated because of her race and in
retaliation for complaining to the Equal Employment Opportunity Commission (EEOC) about
perceived discrimination. Jackson moved the district court to proceed without prepayment of the
district-court filing fee.
The district court granted Jackson leave to proceed in forma pauperis and then screened
her complaint pursuant to § 1915(e)(2)(B)(ii) to determine whether it should be dismissed for
failure “to state a claim on which relief may be granted.” Noting that Jackson had alleged that her
“case was previously in EEOC proceedings until August of 20 i 8,” the district court concluded that
her complaint was untimely because she filed it more than ninety days after the conclusion of her
administrative proceedings. See 42 U.S.C. § 2000e-5(f)(1); Truitt v. County of Wayne, 148 F.3d
644, 646 (6th Cir. 1998). The district court also concluded that Jackson had not alleged any basis
for equitably tolling the statute of limitations. The court therefore dismissed Jackson’s complaint.
This appeal followed.
We review;fie novo the district court’s dismissal of a complaint pursuant to 28 U.S.C.
§ 1915(e)(2)(B). Hill v. Lappin, 630 F.3d 468, 470 (6th Cir. 2010). To survive dismissal, “a
complaint must contain sufficient factual matter, accepted as true, to state a claim to relief that is
plausible on its face.” Id*at 471 (quoting Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)).
We conclude that the court’s sua sponte dismissal of Jackson’s complaint was appropriate
because it was apparent that her employment-discrimination and retaliation claims were barred by
the statute of limitations. See Bowman v. Fister, No. 16-6642, 2017 WL 5495717, at *2 (6th Cir.
Mar. 22, 2017); Alston v. Tenn. Dep't of Corr., 28 F. App’x 475, 476 (6th Cir. 2002). As the
district court noted, Jackson alleged that her “case was previously in EEOC proceedings until
August of 2018,” and yet she did not file her complaint in the district court until July 2019. Jackson
therefore missed the filing deadline by about eight months.
The statute of limitations is subject to equitable tolling. See Truitt, 148 F.3d at 648. But
here, according to her own documents, Jackson was aware no later than March 13, 2019, that her

No. 20-3097
-3 initial EEOC proceedings had concluded, that she needed to obtain a final agency decision on her
discrimination complaint, and that she could then appeal the agency’s decision to the EEOC Office
of Federal Operations within thirty days. Despite Jackson’s actual knowledge that her EEOC
proceedings had concluded, she did not file her complaint in the district court until July 23, 2019,
132 days later. Thus, even assuming that the ninety-day limitations period was tolled until Jackson
had actual knowledge that her EEOC proceedings had concluded, she still missed the filing
deadline by six weeks. Jackson gives no reason for that delay. Cf. Graham-Humphreys v.
Memphis Brooks Museum ofArt, Inc., 209 F.3d 552,561-62 (6th Cir. 2000) (holding that a plaintiff
who missed the ninety-day filing deadline by eleven days and had no explanation for her delay
was not entitled to equitable tolling). We thus find that Jackson did not exercise due diligence in
pursuing her claims, and therefore that the district court did not abuse its discretion in concluding
that she was not entitled to equitable tolling of the statute of limitations, see Truitt, 148 F.3d at 648.
We therefore AFFIRM the district court’s judgment.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

CiNllfcJJ SlAlES (JF AMERICA------------- —
EQUAL EMPLOYMENT OPPORTUNITY COMMISSION
PHILADELPHIA DISTRICT OFFICE
801 Market Street, Penthouse, Suite 1300
Philadelphia, PA 19107
Chauntel Jackson,
Complainant,
v.
Kristjen Nielson, Secretary
Department of Homeland Security,
Transportation Security Administration,
Agency.

EEOC Hearing No.
530-2017-00107X
Agency Case No.
HS-TSA-25420-2016

August 2, 2018

ORDER ENTERING JUDGMENT
For the reasons set forth in the Decision, judgment in the above-captioned matter is hereby
entered. A Notice to the Parties explaining their appeal rights is attached.
It is so ORDERED
August 2, 2018

4

For the Commission:
Dawn M. Edge
ADMINISTRATIVE JUDGE

CERTIFICATE OF SF.RWrFr
For timeliness purposes, it shall be presumed that the parties received the foregoing Order
Entering Judgment and Decision within five (5) calendar days after it was sent via first class
mail. I hereby certify that the Order Entering Judgment and Decision have been sent by regular
first-class mail, postage prepaid, to the following:
Chauntel Jackson
4000 Monticello Blvd., Apt 204
Youngtown, Ohio 44505
(sent via email only: chaunteli ackon@live. com I
Keyur Shah
Attorney-Advisor
Office of the Chief Counsel
Department of Homeland Security/TSA
701 Market Street, Suite 3200
Philadelphia PA 19106
(sent via email and FEDSEP: Kevur.Shah1@tsa.dhs govt

Auaust 2. 2018
Date
Dawn M. Edge
Administrative Judge

NOTICETOTTnrPARTffiS-

TO THE AGENCY:
Within forty days of receiving this decision and the hearing record, you are required to issue a
final order notifying the Complainant whether or not you will fully implement this decision.
You should also send a copy of your final order to the Administrative Judge.
Your final order must contain a notice of the Complainant’s right to appeal to the Office of
Federal Operations, the right to file a civil action in federal district court, the name of the proper
defendant in any such lawsuit, the right to request appointment of counsel and waiver of court
costs or fees, and the applicable time limits for such appeal or lawsuit. A copy of EEOC Form
573 (Notice or Appeal/Petition) must be attached to your final order.
If your final order does not fully implement this decision, you must simultaneously file an appeal
with the Office of Federal Operations in accordance with 29 C.F.R. §1614.403, and append a
copy of your appeal to your final order. See EEO Management Directive 110 (EEO MD-110),
November 9, 1999, Appendix O. You must also comply with the Interim Relief regulation set
forth at 29 C.F.R. §1614.505.

TO THE COMPLAINANT:
You may file an appeal with the Equal Employment Opportunity Commission’s Office of
Federal Operations when you receive a final order from the Agency informing you whether the
Agency will or will not fully implement this decision. 29 C.F.R. §1614.110(a). From the time
you receive the Agency’s final order, you will have thirty (30) days to file an appeal. If the
Agency fails to issue a final order, you have the right to file your own appeal any time after the
conclusion of the Agency’s forty (40) day period for issuing a final order. See EEO MD-110, 93. In either case, please attach a copy of this decision to your appeal.
Do not send your appeal to the Administrative Judge. Your appeal must be filed with the Office
of Federal Operations at the address set forth below, and you must send a copy of your appeal to
the Agency at the same time that you file it with the Office of Federal Operations. In or attached
to your appeal to the Office of Federal Operations, you must certify the date and method by
which you sent a copy of your appeal to the Agency.

WHERE TO FILE AN APPEAL:
All appeals to the Commission must be filed by mail, hand delivery or facsimile.
BY MAIL:
Director, Office of Federal Operations
Equal Employment Opportunity Commission
P.O. Box 19848
Washington, D C. 20036

BY PERSONAL DELIVERY
Director, Office of Federal Operations
Equal Employment Opportunity Commission
1801 L Street, N.W.
Washington, D.C. 20507
BY FACSIMILE
Fax No. (202) 663-7022
Facsimile transmissions of more than ten (10) pages will not be accepted.

COMPLIANCE WITFT AN AGENCY FINAL ACTION
Pursuant to 29 C.F.R, §1614.504, a final action that has not been the subject of an appeal to the
Commission or a civil action is binding on the Agency. If the complainant believes that the
Agency has failed to comply with the terms of this decision, the complainant shall notify the
Agency s EEO Director, in writing, of the alleged noncompliance within thirty (30) calendar
days of when the complainant knew or should have known of the alleged noncompliance. The
Agency shall resolve the matter and respond to the complainant in writing. If the Agency has not
responded to the Complainant in writing, or if the complainant is not satisfied with the Agency’s
attempt to resolve the matter, the complainant may appeal to the Commission for a determination
of whether the Agency has complied with the terms of its final action. The complainant may file
such an appeal thirty-five (35) calendar days after serving the Agency with the allegations of
noncompliance, but must file an appeal within thirty (30) calendar days of receiving the
Agency s determination. A copy of the appeal must be served on the Agency, and the Agency
may submit a response to the Commission within thirty (30) calendar days of receiving the
notice of appeal.

UNITED STATES OF AMERICA
EQUAL EMPLOYMENT OPPORTUNITY COMMISSION
PHILADELPHIA DISTRICT OFFICE
801 Market Street, Penthouse, Suite 1300
Philadelphia, PA 19107
Chauntel Jackson,
Complainant,
v.
Kristjen Nielson, Secretary
Department of Homeland Security,
Transportation Security Administration,
Agency.

EEOC Hearing No.
530-2017-00107X
Agency Case No.
HS-TSA-25420-2016
July 31, 2018

DECISION
This matter came before the U.S. Equal Employment Opportunity Commission (EEOC) pursuant
to Title VII of the 1964 Civil Rights Act. All procedural prerequisites for the processing of the
complaint by the EEOC as set forth in the regulations promulgated by the EEOC at 29 C.F.R. §
1614.101 et. seq., which govern the administrative processing of federal sector complaints of
employment discrimination, have been satisfied.
PROCEDURAL HISTORY
On February 2, 2016, the Complainant, Chauntel Jackson, filed a formal complaint of
discrimination alleging the Agency discriminated against and subjected her to harassment based
on race (African American) and reprisal (prior EEO activity, instant complaint).
On May 15, 2018, the Agency filed a Motion for Decision without a Hearing. The Complai nant
did not file a response opposing the Agency’s Motion.
The regulations governing Federal Sector EEO complaints, 29 C.F.R. § 1614.109(g)(1) and (2),
provide for the issuance of a decision without a hearing, also known as summary .judgment. The
United States Supreme Court has stated that summary judgment is appropriate where the
adjudicator determines that no genuine issue of material fact exists, as governed by the
applicable substantive law. Anderson v. Liberty Lobby, Inc., All U.S. 242, 255 (1986). An issue
is genuine if the evidence is such that a reasonable fact-finder could find in favor of the non­
moving party. Celotex v. Catrett, All U.S. 317, 322-23 (1986); Oliver v. Digital Equip Corp
846 F.2d 103, 105 (1st Cir. 1988).
In order to avoid summary judgment, the non-moving party must produce admissible factual ,
evidence sufticient to demonstrate the existence of a genuine issue of material fact requirin'* >
resolution by the fact-finder. Celotex, All U.S. at 322-2A-Matsushita Elec. Indus. Co. v. Zeni/h

i

Radio, 475 U.S. 574, 587 (1986), Anderson, All U.S. at 247-50. The party opposing a motion
or summary judgment may not simply rest upon the allegations contained in his or her pleading
but must set forth specific facts showing that there is a genuine issue still in dispute Anderson
477 U. S. at 248. Only di sputes over facts that might affect the outcome of the case, and not ’
irrelevant or unnecessary factual disputes, will preclude summary judgment. Id. Material factual
disputes include credibility disputes where two or more people have different versions of the
relevant event, and the determination of that credibility dispute will affect the outcome of the
case.
In determining
whether there are no disputed material facts, the fact-finder must draw all
.
^
inferences from the record in the light most favorable to the party opposing summary judgment

In response to a motion for summary judgment, the fact-finder’s function is not to weigh the
evidence and render a determination as to the truth of the matter, but only to determine whether
there exists a genuine factual dispute. Id. at 248-49; Bhuller v. USPS, EEOC Request No.
05910523 (8/1/91). Finally, the administrative judge may properly issue a decision without a
earing only upon a determination that the parties have had the opportunity to engage in
discovery and the record has been adequately developed. Petty v. Defense Security Service
EEOC Appeal No. 01A24206 (7/11/03); Murphy v. Army, EEOC Appeal No. 01A04099 ’

Inthiscase, the Acknowledgement was issued on December 4, 2017. On January 18, 2018 the
Scheduling Order was issued and advised the parties of their right to engage in discovery. The
Agency’s Motion for a Decision Without a Hearing was filed after the 90-day discovery period
had Passed. I find that Complainant did have the opportunity to engage in discovery and that the
record has been adequately developed to issue a decision. Having considered all material
documentary evidence in the record, which includes the Report of Investigation (ROI) and the
parties submissions, I have determined that there are no genuine issues of material fact in
dispute.

CLAIMS PRESENTED
Whether Complainant, a Transportation Security Officer (TSO) at Cleveland Hopkins
International Airport, Cleveland, Ohio, was discriminated against and subjected to harassment
because of race (African-American) and subjected to reprisal (Prior EEO activity: instant
complaint) when:
1. On an unspecified date in September 2015, a management official spoke to the
Complainant in a rude manner and “mimicked” her during a briefing.
2. On an unspecified date in November 2015, the Complainant received a Notice of
Proposed Removal after a passenger complaint and for misreading an employee’s badge.

3

3. On December 26, 2015, a management official questioned the Complainant about her
reasons for chuckling during a briefing and then threatened to “write her up” when the
Complainant refused to answer the question.
4. On an unspecified date, a management official called the Complainant into his office to
question her response to the management official that questioned the Complainant about
her reasons for chuckling during a briefing.
5

On an unspecified date, a management official told the Complainant to “put her phone
away” and later asked her for statements regarding the incident.

6. On an unspecified date, the Complainant went to a management official about the
treatment that she received. The management official questioned the Complainant about
days missed from work and later “wrote her up” for tardiness on three (3) occasions.
7. On January 7, 2016, the Complainant was removed from federal service

UNDISPUTED MATERIAL FACTS
Based upon the averments in Complainant’s complaint, which I must accept as true under the
foregoing standard of review, the pertinent facts are as follows:
1. During the relevant period. Complainant, Chauntel Jackson (race: Black), was employed
as a Transportation Security Officer (TSO) at the Cleveland Hopkins International
Airport in Cleveland, Ohio. (ROI58). The Complainant held the position of TSO for
approximately three (3) years. Id.
2.

On August 20, 2015, Transportation Security Manager (TSM), Kristy Clark, issued
Complainant a Letter of Counseling for tardiness and Absence Without Leave (AWOL).
(ROI 201). The letter notified the Complainant that from May 2015 to August 2014
Complainant was late ten (10) times. Id. In response, Complainant notified Clark that
she was late because he had difficulty acclimating to her 3:30 a.m. start time. (ROI 63).

3. On or about September 6, 2015, and while working at the checkpoint, Supervisory
Transportation Security Officer (STSO), Jessica Killian, commented to Complainant after
Complainant inquired about being relieved, that Complainant needed to stop asking about
being relieved from her shift, and should wait until the end of the shift (ROI 59 99-100Agency Motion Ex. C).
4. On an unspecified date, STSO Deborah McCoig called Complainant into her office and
SComPlamant regarding why she laughed during a briefing earlier that day.
(ROI 60). McCoig accused Complainant of being unprofessional to which Complai nant
responded that others were also joking and laughing. Id. Complainant further told
McCoig that she did not have to answer her questions because McCoig was not present at
the briefing. Id. McCoig threatened to discipline the Complainant, but never did. Id.

5. On an unspecified date, STSO Jeromie Archer told Complainant to put her phone away.
(ROI 62). Sometime thereafter, ISM Mark Williams notified Complainant that he
confirmed that Complainant was not on her phone and he could not issue her a
reprimand. Id.
6. On an unspecified date, Complainant approached TSM Clark about the behavior of STSO
Christine Vankeuren and STSO Jeffrey Taylor because the two employees had criticized
Complainant, including telling her she could not eat her breakfast and drink coffee on the
checkpoint. (ROI 63).
7. On October 16, 2015, TSM Kristy Clark issued Complainant a Letter of Counseling
citing Complainant’ inappropriate comment and conduct toward LTSO Jessica Killian
when Killain notified the staff about “relief time”. (Agency Motion Ex. D).
8. On October 31, 2015, TSMBrian Phillips issued Complainant a Notice of Proposed
Removal citing Complainant’s Lack of Candor and Failure to Follow Procedures. (ROI
131-135). The Notice specifically noted that on October 23, 2015, the Complainant
falsely noted that she was not trained on the employee badge reading, and on October 22,
2015, Complainant allowed an unauthorized person into the sterile area. Id.
9. The Complainant sought initial EEO counseling on December 2015, and filed a formal
complainant of discrimination on February 2, 2016. (ROI 29, 33).
10. On January 6, 2016, Deputy Assistant Federal Security Director (DAFSD), Steve Hogan,
issued the Complainant a Notice of Decision on Proposed Citing:
a. Failure to Exercise Courtesy in the Performance of Duties for, an October 11,
2015, incident where a passenger complained about Complainant’s discourteous
tone and unprofessional behavior;
b. Failure to Follow Procedures, for an October 22, 2015, Complainant allowed an
unauthorized person into the sterile area; and,
c. Lack of Candor, for an October 23, 2015, incident when the Complainant
allegedly falsely noted that she was not trained on the employee badge reading.
(ROI 137-145).
11. The Complainant appealed the January 6, 2016, termination decision and was
subsequently reinstated at the Cleveland Hopkins International Airport on April 14, 2016
(ROI 59, 198-199).
12. On April 20, 2016, Complainant submitted a letter of resignation to Human Resources
Specialist Jackie Calhoun. (ROI 59).
Based upon the foregoing, Complainant filed the instant claim of discrimination.

APPLICABLE LAW and ANALYSTS
The burdens of proof in discrimination cases are generally allocated according to the standard
established in McDonnell Douglas Corp. v. Green, 411 U S. 792 (1973), This case set forth a
thiee-tier test for determining whether there has been discrimination in violation of Title
VII. The Complainant has the initial burden of showing actions taken by the employer from
which one can infer, if such actions remain unexplained, that it is more likely than not such
actions were based on discriminatory criteria. See Texas Dep 7 ofCmty. Affairs v. Burdine, 450
U.S. 248 (1981); McDonnell Douglas Corp. v. Green, supra.
If api imafacie case of discrimination has been established, the burden then shifts to the Agency
to articulate a legitimate, nondiscriminatory reason for the challenged action. Burdine at 253-4;
McDonnell Douglas at 802. The Complainant may then show that the legitimate reason offered
by the Agency was not the true reason, but merely a pretext for discrimination. Burdine at 256;
McDonnell Douglas at 804. See also St. Mary's Honor Cir. v. Hicks, 113 S. Ct. 2742 (1993)
Disparate Treatment - Rare
In order to establish aprimafacie case of disparate treatment, the Complainant must show that
T 0) She is a member of a protected class and (2) shewas treated differently, under similar ./
1 circumstances, than an individual outside her protected class. McDonnell Douglas at 802 n 13 .?
- rottCrVr^mJdmTpndustries ofCleveM,5TTF^864 (6th Cir 1975i ifftey v A/nriw^~~—
' ~^rlims, Inc., 366F,Supp. 763 (D. Mass. 1976). See Murray v. Thistledown Racing Club, 7/?cr—
770_f
63_at 68 (6th Cir, 1985), which asserts that"persons are similarly situated when all of
j therelevant aspectsjrf theemploy m ent situation are-near!y-identi cal withjhose of the
~
^Complainant. Alternatively, the Complainant may show a causal connection between
r~
—
"‘membership in a protected class and'thTactLomtaken. Leftwichv. United States Steel Corn 470
rF. Supp. 758 (W.D. PA 1979).
'
'
''
I find that the Complainant has failed to establish a prima facie case of disparate treatment
because of race (Black). Specifically, the Complainant fails to identify any similarly situated
employees outside of her protected class who were treated more favorably and under similar
circumstances.
Except for the removal allegation, the Complainant generally contends that management
subjected her to alleged disparate treatment including, being questioned for chuckling during a
meeting; subsequently spoken to about refusing to answer questions about that incident; being
asked to put away her cellphone; and, alleged mimicking, and discipline for tardiness because
“they are White and she is Black.” (ROI 59, 60, 61, 62, 63).
The Complainant’s bare allegations of discriminatory animus, without more, are insufficient to
raise a genuine issue of material fact. See Arrington v. U.S., 473 F.3d 329, 337 (D.C. Cir 2006)
citing Greene v. Dalton, 164 F.3d 671 (D.C. Cir. 1999) (“[cjonclusory, unsubstantiated
statements of an opposing party which are unsupported by specific facts are insufficient to
overcome a summary judgment motion.”); See also Erby v. U.S. Postal Serv., EEOC Appeal No.
0120064377 (Feb. 12, 2008) (concluding that appellant’s bare assertions are insufficient to
overcome the Agency’s legitimate, nondiscriminatory reasons). The Complainant in the present

case tails to put forth any specific facts to support his several allegations of discrimination. I----thus find the allegations to be speculation and conjecture.
As for Complainant s allegation of disparate treatment for the proposed and subsequent removal,
the Complainant contends that fellow TSO Alin Deak (Romanian) was treated more favorably
when he failed to recognize a SSSS passenger's boarding pass (notification of required
additional screening) and failed to timely inform the passenger of the required additional
screening. (ROI 61, 65). The Complainant contends that despite TSO Deak’s misconduct, the
Agency reassigned him to a temporary assignment and only issued him a suspension while
Complainant was terminated. (ROI 61).
Despite the Complainant’s contentions, the record shows that the Complainant and TSO Deak
are not similarly situated because they have different disciplinary histories. The record shows
that the Complainant had numerous Letters of Guidance and/or Reprimands prior to the October
22, 2015, incident wherein she allowed an unauthorized person in the sterile area. Specifically,
the record shows the Complainant’s disciplinary history as follows: April 20, 2015 (Letter of
Guidance); June 15, 2015 (Letter of Reprimand); August 20, 2015 (Letter of Counseling);
October 8, 2015 (Letter of Counseling); October 16, 2015 (Letter of Counseling)). (ROI 137144; 201; Agency Motion, Ex. D). On the contrary, the record shows that comparator Deak was
issued only one (1) reprimand prior to his boarding pass incident that lead to a suspension
opposed to termination. (Agency Motion, Ex. E).
Thus, I find that the Complainant and alleged comparator TSO Deak are not similarly situated.
The Commission holds that to be similarly situated, other comparative employees must have
reported to the same supervisor; must have been subject to the same standards governing
discipline; and must have engaged in conduct similar to Complainant's, without differentiating
or mitigating circumstances that would distinguish their misconduct or the appropriate
discipline for it. See O ’Neal v. U.S. Postal Serv., EEOC Request No. 05910490 (July 23, 1991)
(emphasis added).
I therefore find Complainant has failed to establish aprima facie case of disparate treatment
because of race.
Reprisal
JToestabhsh & prima facie case of reprisal discrimination, the Complainant must establish that:
^lTshB4rad^f«4emlyengagedin protected activity; (2) the employer Agency wsawareofthe' ' ~
•^protect ed-activity;' (3 )~Th c ConipTainanrwas^subsequently subjected to adverse treatmenfbythe~
"Cogency orlEowThat the agency’s actions would reasoriably~3eter use of the EEO Process "SeeT '
CEEeeeo-mpliance Manual, No. 915:003 (May 20, 1998); and (4) there m^tTe^^iTexus 4
•between the protected activity and the adverse employment action, such as proximity in time.
s
SeeHochstadiy^Worcester houndation for Experimental Biology, Inc., 425 F.Supp. 318, afFd
545 F.2d 222 (lst.Cir.1976); Burrus v. Telephone Co. of Kansas, Inc., 683 F2d 339 (10th Cir
1982), cert den., 459 U.S. 1071 (1982).
'
’
I find that the record establishes a prima facie case of reprisal only for the January 7, 2016, claim
of removal. The Complainant sought initial EEO counseling on December 2015, and filed a

In

lomiai complainant ot discrimination on bebruary 2, 2016. (ROi 29, 33), The temporal
proximity between Complainant’s EEO contact and her termination establishes the nexus
necessary to establish a prima facie case of reprisal.
It is well settled that nexus may be shown by evidence that the adverse action followed the
protected activity within such a period of time and in such a manner that a retaliatory motive is
inferred. Mallis v. U.S. PostalServ., EEOC Appeal No. 01A55908 (Oct. 3, 2006) (citing Simens
v. Dep t of Justice, EEOC Request No. 05950113 (March 28, 1996) (citations omitted). I note
that in general, the Commission has held that a Complainant can establish a nexus if events
occurred within one year of each other. Id. (citing Patton v. Dep't of the Navy EEOC Reciuest
No. 05950124 (June 27, 1996).
As for the other claims of reprisal, namely Claim Nos. 1-6, the record shows that the acts either
occurred prior to Complainant s EEO contact, or the Complainant fails to establish a causal
connection between her protected activity and the alleged adverse actions.
For the above reasons, I find that the Complainant has established a prima facie case of reprisal
only for the removal claim.
Hostile Work Environment
To establish a claim of harassment, a complainant must show that (1) she is a member of the
statutorily protected class; (2) she was subjected to harassment in the form of unwelcome verbal
or physical conduct involving the protected class, (3) the harassment complained of was based
on the statutorily protected class, and (4) the harassment affected a term or condition of
employment and/or had the purpose or effect of unreasonably interfering with the work
environment and/or creating an intimidating, hostile, or offensive work environment. 29 C F R §
1604.11; Humphrey v. USPS, EEOC Appeal No. 01965238 (October 16, 1998). The harassed
conduct should be evaluated from the objective viewpoint of a reasonable person in the victim's
circumstances. Enforcement Guidance on Harris v. Forklift Systems, Inc., EEOC Notice No.
915.003 (March 8, 1994). Further, the incidents must have been "sufficiently severe and
pervasive to alter the conditions of complainant's employment and create an abusive working
environment." Harris v. Forklift Systems, Inc., 510 U.S. 17, 21 (1993), see also Onca/e v.
Sundowner Offshore Services, Inc., 23 U.S. 75 (1998).
In determining that a working environment is hostile, factors to consider are the frequency of the
alleged discriminatory conduct, its severity, whether it is physically threatening or humiliating,
and if it unreasonably interferes with an employee's work performance. See Harris v. Forklift ’
Systems. Inc., 510 U.S. 17, 21 (1993). The incidents must have been "sufficiently severe or
pervasive to alter the conditions of [Complaint's] employment and create an abusive working
environment." Harris, 510 U.S. at 21. The harasser's conduct should be evaluated from the
objective viewpoint of a reasonable person in the victim's circumstances. Enforcement Guidance
on Harris v. Forklift Systems, Inc., EEOC Notice No. 915.002 (Mar. 8, 1994) (Enforcement
Guidance on Flarris).
I find that the Complainant has failed to establish aprima facie case of harassment because of
her of race because she failed to put forth any evidence, except bare assertions, showing that the

n

Agency’s actions race based. As for the reprisal claims, the record does
not establish that they
were sufficiently severe or pervasive to rise to the level of harassment.
The Commission recognizes that not even' unpleasant or undesirable action which occurs in the
jotkplact consutates an EEO violation.
Shealey v. EEOC, EEOC Appeal No. 0120070356
(Apr. 18. 2011) (atwg Epps v. Dep’t of Tramp., EEOC Appeal No. 0120093688 (Dec 19
2009). Put another way, not everything that makes an employee unhappy in the workplace
creates a cause of action of discrimination. Discrimination statutes prohibit only behavior that is
directed at an employee because of the employee's protected bases.
Title VII does not create a right to work in a pleasant environment, it simply requires that the
wor environment be free from discrimination and reprisal. Vore v. Indiana Bell Telephone Co
32 F.3d 1162 (7th Cir. 1994).
’
As theD.C. Circuit observed:
Workplaces are not always harmonious locales, and even incidents that would
objectively give rise to bruised or wounded feelings will not on that account satisfy
the severe or pervasive standard. Some rolling with the punches is a fact of
workplace life. Thus, complaints premised on nothing more than “rude treatment
by [coworkers],” Baqir v. Principi, 434 F.3d 733, 747 (4th Cir. 2006), “callous
behavior by [ones] superiors,” Bass v. E.l. DuPont de Nemours & Co., 324 F 3d
761, 765 (4th Cir. 2003), or “a routine difference of opinion and personality conflict
with [one's] supervisor,” Hawkins v. PepsiCo, Inc., 203 F.3d 274, 276 (4th Cir
2000), are not actionable under Title VII.
See EqualEnrpl. Opp. Comm ’n v. Sunbelt Rentals, 521 F.3d 306 (4th Cir. 2008)
Therefore, in the present case, I find that the Complainant has failed to establish that the
Agency s actions were because of her protected class or were sufficiently severe or pervasive,
thus, failing to establish a prima facie case of harassment.

Legitimate, Nondiscriminatorv Reason
Despite establishing * primefacie case of reprisal, the Agency articulated a non-discriminatory

on

.

■ C

tba'<he Co“P'-na"fs repeated offenses required.

Tlie Complainant contends that me Agency s reasons are pretext because after she appealed the
Agency s decision to its Office of Professional Responsibility Board, she was reinstated (ROI
, 198-199). Despite the Complainant’s reinstatement, she foils to put forth evidence that
shows that the legitimate reason offered by the Agencv was not the true reason, but merely a
pretext for discrimination.
The Commission holds that the Complainant must demonstrate by the preponderance of the
evidence that the Agency's articulated legitimate, nondiscriminatory reason is pretext for
discrimination. "Proving pretext requires that a complainant show discriminatory reasons more
like y motivated the agency, or show the agency's proffered explanations are not credible."
Hickman v. Dep 7 of Veterans Affairs, EEOC App. No. 0120103148 (Nov. 23, 2010).
Thus, I find that the Complainant has failed to offer any such evidence establishing a
discriminatory motive or any evidence rebutting the Agency’s reasons for its actions that mfoht
tend to show that the Agency’s reasons were a pretext for discrimination. St Mary SHonor °
Center v. Hick, supra.
CONCLUSION
Tor all these reasons, the Agency's Motion for a Decision Without a Hearing is GRANTED. I
find that the Agency did not discriminate against the Complainant because of her race or reprisal
n making this determination, I have considered all material and relevant evidentiary doc uments
and affidavits in the record. An accompanying Order will be entered.
For the C ommi ssi on:

JJ
Dawn M. Edge
Administrative Judge

6

---------------- UNITED STATES OF AMEfti€A---------------EQUAL EMPLOYMENT OPPORTUNITY COMMISSION
PHILADELPHIA DISTRICT OFFICE
801 Market Street, Penthouse, Suite 1300
Philadelphia, PA 19107
Chauntel Jackson,
Complainant,
v.
Kristjen Nielson, Secretary
Department of Homeland Security,
Transportation Security Administration,
Agency.

EEOC Hearing No.
530-2017-00107X
Agency Case No.
HS-TSA-25420-2016

August 2, 2018

REVISED ORDER ENTERING ITIDGMFNTl
For the reasons set forth in the Decision, judgment in the above-captioned matter is hereby
entered. A Notice to the Parties explaining their appeal rights is attached.
It is so ORDERED
August 2, 2018

For the Commission:
Dawn M. Edge
ADMINISTRATIVE JUDGE

Revised Certificate of Sendee only with Complainant’s corrected email.

it

CERTIFICATE OF SFR VTPF

^

”d DeC,S‘0n haVe beM Sen' by ^

Chauntel Jackson
4000 Monticello Blvd., Apt 204
Youngtown, Ohio 44505
(sent via email only: chaunteljacksonfffilive.com')
Keyur Shah
Attorney-Advisor
Office of the Chief Counsel
Department of Homeland Security/TSA
701 Market Street, Suite 3200
Philadelphia PA 19106
(sent via email and FEDSEP: Kevur.Shahl@tsa dhs oovt

August 2. 2018
Date
Dawn M. Edge
Administrative Judge

I I

NOTICE TO THE PARTIES

TO THE AGENCY:
Within forty days of receiving this decision and the hearing record
you are required to issue a
final order notifying the Complainant whether or not you will fully implement this decision,
You should also send a copy of your final order to the Administrative Judge.

XrJn1 °1er mu? COnutain ?,n0tice 0f the ComPlai^nt’s right to appeal to the Office of
edera! Operations, the right to file a civil action in federal district court, the name of the proper
rn jrdanf m an!i T a rSU1u; the r‘sht t0 request aPPointment of counsel and waiver of court
fees’ a”d the aPPllcable time limits for such appeal or lawsuit. A copy of EEOC Form
573 (Notice or Appeal/Petition) must be attached to your final order.
with
Offire
implement this decision> you must simultaneously file an appeal
with the Office of Federal Operations in accordance with 29 C.F.R. §1614.403 and append a
copy 0 y°ur appeal to your final order. See EEO Management Directive 110 (EEO MD-110)
ovember 9, 1999, Appendix O. You must also comply with the Interim Relief
regulation set
forth at 29 C.F.R. §1614.505.

TO THE COMPLAINANT:
You may file an appeal with the Equal Employment Opportunity Commission’s Office of
ederal Operations when you receive a final order from the Agency informing you whether the
Agency will or will not fully implement this decision. 29 C.F.R. §1614.110(a) From the time
you receive the Agency’s final order, you will have thirty (30) days to file an appeal If the
Agency fails to issue a final order, you have the right to file your own appeal any time after the
conclusion of the Agency’s forty (40) day period for issuing a final order. See EEO MD
-110, 93. In either case, please attach a copy of this decision to your appeal.

you must certify the da,e and raethod by

i:

WHERE TO FILE AN APPEAL:
All appeals to the Commission must be filed by mail, hand delivery or facsimile.
BY MAH/
Director, Office of Federal Operations
Equal Employment Opportunity Commission
P.O. Box 19848
Washington, D.C. 20036

BY PERSONAL DELIVERY
Director, Office of Federal Operations
Equal Employment Opportunity Commission
1801 L Street, N.W.
Washington, D.C. 20507
BY FACSIMILE
Fax No. (202) 663-7022
Facsimile transmissions of more than ten (10) pages will not be accepted

COMPLIANCE WITH AN AGENCY FINAL ACTION
Pursuant to 29 C.F.R. §1614.504, a final action that has not been the subject of an appeal to the
Commission or a civil action is binding on the Agency. If the complainant believes that the
Agency has failed to comply with the terms of this decision, the complainant shall notify the
Agency’s EEO Director, in writing, of the alleged noncompliance within thirty (30) calendar
days of when the complainant knew or should have known of the alleged noncompliance. The
Agency shall resolve the matter and respond to the complainant in writing. If the Agency has not
responded to the Complainant in writing, or if the complainant is not satisfied with the Agency’s
attempt to resolve the matter, the complainant may appeal to the Commission for a determination
of whether the Agency has complied with the terms of its final action. The complainant may file
such an appeal thirty-five (35) calendar days after serving the Agency with the allegations of
noncompliance, but must file an appeal within thirty (30) calendar days of receiving the
Agency’s determination. A copy of the appeal must be served on the Agency, and the Agency
may submit a response to the Commission within thirty (30) calendar days ’of receiving the
notice of appeal.

Case: 4:19-cv-01676-BYP Doc #: 4 Filed: 12/23/19 1 of 11. PagelD#:102

PEARSON, J.
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
CHAUNTEL JACKSON,
Plaintiff,

)
)
)

)
v.
TRANSPORTATION SECURITY
ADMINISTRATION,

CASE NO. 4:19-CV-1676

JUDGE BENITA Y. PEARSON

)
)

)
)
)

MEMORANDUM OF OPINION
AND ORDER
[Resolving ECF No. 2]

Defendant.

Pending before the Court is the Complaint of pro se Plaintiff Chauntel Jackson against
the Transportation Security Administration (“TSA”). ECF No. 1. In the Complaint, Plaintiff
alleges she was terminated from her employment with TSA as a result of racial discrimination.
Plaintiff seeks monetary relief.
For the reasons that follow, this case is dismissed.
I. Background
Plaintiff was hired to work for TSA in March 2013. ECF No. 1-1 at PagelD #: 32
[Sealed]. She was assigned to the position of Travel Document Checker. Beginning in April
2015, Plaintiff committed a series of infractions that led to her dismissal.
On April 9, 2015, Plaintiffs supervisor asked her to help locate a toothbrush and lip balm
that were placed in the lost and found on February 5, 2015. ECF No. 1-1 at PagelD #: 35.
Plaintiff contends she did not volunteer for this collateral duty. She indicated she was not sure if
she threw the items away after thirty days or if they were misplaced in the store room but her

Case: 4:19-cv-01676-BYP Doc #: 4 Filed: 12/23/19 2 of 11. PagelD #: 103

T4rrecvr6-75)supervisor “was on a quest to find out what happened to this toothbrush and lip balm.” Id. She
states she and others with access to the store room were asked to write a statement concerning
these two items. Plaintiff then composed a letter to her supervisor resigning from collateral
duties. Id.
On April 10, 2015, Plaintiff allowed a female passenger to enter the security checkpoint
area without a valid boarding pass in her own name. Id. at PagelD #: 33. The passenger
presented her husband’s boarding pass to Plaintiff. Plaintiff did not adequately check the name
on the boarding pass with the name on the identification and allowed her to pass through. The
passenger’s husband then arrived at the checkpoint a few minutes later and informed Plaintiff
that his wife possessed his boarding pass and he had hers. Plaintiff initially told her superiors
that she had discovered the error but her superiors later learned that the husband had alerted her
to the mistake. The supervisor issued a Letter of Guidance and Direction to Plaintiff, explaining
that the letter was not a disciplinary action and would not be placed in her personnel file. Id. at
PagelD #: 33, 76. Instead, he would keep a copy of the letter for five years in the event that it
was needed for later disciplinary actions to show that she had been notified of the violation. He
also cautioned her against a lack of candor, particularly in security situations. Id. at PagelD #:
77.

Another incident occurred on June 15, 2015 in which Plaintiff allowed an individual to
pass through the security checkpoint without properly confirming that the name on the boarding
pass matched the name on the identification. Id. at PagelD #: 31, 38, 76,78. On this occasion

2

Case: 4:19-cv-01676-BYP Doc#: 4 Filed: 12/23/19 3 of 11. PagelD #: 104

f4:19CV1676)
she received a Letter of Reprimand, informing her that further misconduct could lead to more
severe discipline, including termination from federal employment. Id. at PagelD #: 38.
On September 6, 2015, Plaintiff spoke rudely to her supervisor. She indicates that her
supervisor had been treating her disrespectfully for some time and had been particularly
disrespectful to her in the briefing. She contends no one else intervened so she confronted the
supervisor afterward by waving her finger and saying, “You know you was wrong for that
briefing you gave.” Id. at PagelD#: 74. On October 8, 2015, she received a Letter of Counseling
for this infraction infonning her that her behavior was unacceptable and that she was required to
act in a professional manner and treat others with dignity and respect. Id. at PagelD#: 76.
A similar incident occurred with a passenger on October 11, 2015, just three days after
receiving the Letter of Counseling. Plaintiff told a female passenger to “put her listening ears
on.” Id. at PagelD#: 74. The passenger responded that Plaintiff did not need to talk to her that
way and Plaintiff apologized. The passenger complained to Plaintiffs superiors. Id.
On October 22, 2015, Plaintiff allowed ^formerjairport employee to gain access to a
secure area of the airport with a deactivated employee badge. Id. at PagelD #: 37, 71, 78. The
badge was placed on the badge reader which indicated the badge was invalid. Plaintiff did not
pay attention to the indication and admitted the individual to the secure area. When confronted
with the error, Plaintiff said she initially saw green when she scanned the badge and then turned
so she did not see the negative indication on the reader. Id. at PagelD #: 72. She told her
supervisors that she had not been trained on how to use the scanner and did not know how it

3

Case: 4:19-cv-01676-BYP Doc#: 4 Filed: 12/23/19 4 of 11. PagelD#:105

(4.19CV1676)
would react if the badge was disabled. Her supervisor determined she was trained on the scanner
in 2013 and cited her lack of candor as well. Id. at PagelD #: 72-78.
Plaintiff states that she was taken off of her regular checkpoint duties and assigned to the
“exit” for two months. ECF No. 1 at PagelD #: 3. She indicates this assignment made her feel
isolated.
Because the disabled badge incident was Plaintiffs third security infraction in twelve
months, TSA decided to remove her from her position as a TSA Officer and terminate her
employment with the federal government on January 6, 2016. ECF No. 1-1 at PagelD #: 71.
Plaintiff appealed that decision to the Homeland Security Appellate Board. She alleges the. ,
Appellate Board reversed her termination and reinstated her to her employment. ECF No. 1 at
PagelD#: 2. She returned to work on April 14, 2016. ECF No. 1 at PagelD #: 2. She states she
resigned on April 20, 2016 because “the employee-employer relationship had been broken and
because [she] had lost everything [she] owned because of TSA’s actions against [her].” ECF No.
1 at PagelD #: 2-3.
Plaintiff contends TSA treated her differently than it treated a Caucasian male who had
failed to follow standard operating procedure at a security checkpoint. ECF No. 1 at PagelD #: 3.
She indicates Alin Deak had two infractions at the screening checkpoint. First, on November 8,
2015, he allowed a passenger to gain access to a flight from Cleveland to Los Angeles using a
boarding pass with an incorrect date. Deak was removed from his screening duties until he was
retrained. ECF No. 1-1 at PagelD #:41-48. Second, on December 4, 2015, Deak subjected a
passenger to a standard screening when standard operating procedure required a more thorough

4

Case: 4:19-cv-01676-BYP Doc#: 4 Filed: 12/23/19 5 of 11. PagelD #: 106

-----(4:-19CV1676)------------------------------------------------------------------------------ ---------------------security screening to be used. A supervisor noticed the mistake and screened the passenger more
thoroughly before clearing him to enter the secure area. At the second offense, Deak expressed
remorse for his mistake and presented an action plan to ensure such a breach would not occur in
the future. Id. at PagelD #: 42. He received a Letter of Reprimand in lieu of a three-day
suspension. A Performance Improvement Plan was implemented for Deak on January 22, 2016.
Id. at PagelD #: 45. The Plan states that his performance has been unsatisfactory and he was
placed in a probationary period for ninety days. He was told that it was expected that he would
have no negative performance events during this period and if he did, he would face adverse
personnel action, including removal from federal service. Deak was removed from the document
check position and given the job of pushing bins through the x-ray machine. Plaintiff states that
because Deak was not fired, he received more favorable treatment than her due to her race. ECF
No. 1 at PagelD #: 3.
II. Standard for Dismissal
Although pro se pleadings are liberally construed, Boas v. MacDougall 454 U.S. 364,
365 (1982) (per curiam); Haines v. Kerner, 404 U.S. 519. 520 (1972), the Court is required to
dismiss an in forma pauperis action under 28 U.S.C. $1915(e) if it fails to state a claim upon
which relief can be granted, or if it lacks an arguable basis in law or factkNeitzke v. Williams,
490 U.S. 319 (1989); Lawler v. Marshall 898 F.2d 1196 (6th Cir. 1990); Sistrunk v. City of
Strongsville. 99 F.3d 194. 197 (6th Cir. 1996). An action has no arguable basis in law when a
defendant is immune from suit or when a plaintiff claims a violation of a legal interest whicfu;
clearly does not exist^ Neitzke, 490 U.S. at 327. An action has no arguable factual basis when

5

\

Case: 4:19-cv-01676-BYP Doc#: 4 Filed: 12/23/19 6 of 11. PagelD #: 107

(4:l9CVJjWA)—’
fhe allegations are delusional or rise to the level of the irrational or “wholly incredible. Denton
v, //e/v;fl/?#g^r-504~UrS:'2§T'3-2-/-l-9-921: Lfl.w/gr..-89:8-Ejd.3t 11_99._______________

Z'

in determining whether Plaintiff has stated a claim upon which relief can be granted, the
\

Court must construe the Complaint in the light most favorable to Plaintiff, accept all factual
allegations as true, and determine whether the Complaint contains enough fact to state a claim

/

to relief that is plausible on its face.” Bell All. Cory, v. Twomblv. 550 U.S. 544, 570 (2007).
v f Plaintiffs obligation to provide the grounds for relief “requires more than 1 abelian d conclusion^
and a formulaic recitation of the elements of a cause of action will not do./ IcL Although the

\
\
\

I Complaintneed not contain detailedfactual allegations, its factual allegations must be enough
to raise a right to relief above the speculative level on the assumption that all the allegations in

\
i

the complaint are true.” Id. The Court is “not bound to accept as true a legal conclusion couched
as a factual allegation.” Papasan v. Allain. 478 U.S. 265, 286 (1986). The Supreme Court in
Ashcroft v. Iabal. 556 U.S. 662. 677-78 (20091. further explains the “plausibility” requirement,
stating that “a claim has facial plausibility when the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the defendant is liable for the misconduct"
a 11 p.ped.'’Zhfha1. 556 U.S. at 678. Furthermore, “the plausibility standard is not akin to a
‘probability requirement,’ but it asks for more than a sheer possibility that a defendant acted
unlawfully.” Id. This determination is a “context-specific task that requires the reviewing court
to draw on its judicial experience and common sense.” Id.
III. Law and Analysis

6

Case: 4:19-cv-01676-BYP Doc#: 4 Filed: 12/23/19 7 of 11. PagelD #: 108

As an initial matter, Plaintiff does not indicate what cause of action she is attempting to
assert.

'o the extent she is attempting to bring a Bivens' action, her claim must be dismissed.

Bivens provides a cause of action against individual officers acting under color of federal law
alleged to have acted unconstitutionall^^rr^yerKy. Corn. v. Malesko. 534 U.S. 61. 70 (2001V

It does not support an action against the United States government or any of its agencies. See id;
see aisled. Deposit Ins. Coro, v. Mever. 510 U.S. 471. 484-86 H994V
To the extent Plaintiff intends to assert a claim under Title VII of the Civil Rights Act of
1964> 42 U.S.C. § 2000e2. et seq., she has failed to state a claim upon which relief may be
granted. Title VII makes it unlawful for an employer “to fail or refuse to hire or to discharge any
individual, or otherwise to discriminate against any individual with respect to his compensation,
terms, conditions, or privileges of employment, because of such individual’s race, color, religion,
sex, or national origin.” 42 U.S.C. § 2000e 2(a). The Court is aware that, at this stage, Plaintiff
is not required to plead her discrimination claim with heightened specificity. See Swierkiewicz v.
Sorema N. A., 534 U.S. 506, 513-14 (2002). Nevertheless, Plaintiff must still provide enough
facts to state a claim for relief that is plausible on its face. Twomblv. 550.U.S. at 555: Iqbal. 556
U.S. at 678. The Sixth Circuit explored the scope of Twombly and Iqbal noting that “even

Bivens v. Six Unknown Named Agents ofFed. Bureau of Narcotics. 403 U.S. 388 (1971).
2 Title VII is the “exclusive remedy” available for federal employees claiming to have been
the victim of discriminatory or retaliatory acts by the government. See Briggs v. Potter, 463 F.3d
507, 517 (6th Cir. 2006); see also Black v. Runyon, 2000 WL 254669, at *7 (N.D. Ohio Jan. 4,
2000) (citing Brown v. General Servs. Admin., 425 U.S. 820, 829 (1976)). As Plaintiff alleges
she was an employee of TSA, a federal agency of the United States Department of Homeland
Security, the Court appropriately construes her claim under Title VII analysis.
7

Case: 4:19-cv-01676-BYP Doc #: 4 Filed: 12/23/19 8 of 11. PagelD #: 109

f4r-19CV1676)
though a complaint need not contain detailed factual allegations, its “[f]actual allegations must be
enough to raise a-right to relief above the speculative level on the assumption that all the
allegations in the complaint are true.” New Albany Tractor v. Lousiville Tractor, 650 F.3d 1046,
1051 (6th Cir. 2011) (quoting Twombly, 550 U.S. at 555).
Plaintiffs Complaint never rises above the speculative level. The Court is left to guess
her race and why she believes race was a motivating factor in her dismissal. Nevertheless,
construing the facts most favorably to Plaintiff, the Court proceeds to analyze the Complaint
under the established framework for evaluating claims of race discrimination under Title VII
thq McDonnell Douglas burden shifting approach. McDonnell Douglas, 411 U.S. 792 (1973).
Under McDonnell Douglas, Plaintiff must first allege facts to establish a prima facie case of race
discrimination. Once Plaintiff has made such a showing, “the burden shifts to [Defendant] to
articulate a legitimate, non-discriminatory reason for its decision.” Id. at 802. To make a prima
c^'

facie case, Plaintiff must show: (1) that she is a member of a protected class; (2) that she suffered
an adverse employment action; (3) that she was qualified for the position; (4) and that a similarly
situated non-protected employee was treated more favorably than Plaintiff. Gay v. Teleflex Auto.,
2008 WL 896946^ at *8 (N.D. Ohio Mar. 28, 2008) (citing Talley v. Bravo Pitino Restaurant,
Ltd., 61 F.3d 1241, 1247 (6th Cir. 1995).
Assuming Plaintiff were able to meet the first three factors of the first prong of the
McDonnell Douglas test, she fails to establish that a similarly situated non-protected employee
was treated more favorably than she. Plaintiff grounds her entire discrimination claim in the
disciplinary actions taken against her and those taken against Deak, a Caucasian employee, for

8

,

Case: 4:19-cv-01676-BYP Doc #: 4 Filed: 12/23/19 9 of 11. PagelD #: 110

■(4-:+9eV4474).
security-related infractions. This, however, was Plaintiff’s third security-related infraction in
twelve months while it was only Deak’s second security-related infraction. Deak received a
Letter of Reprimand and a warning that his employment could be terminated if he had any other
incidents in the next three months. Plaintiff had also received a Letter of Reprimand and a
warning at her second infraction. Based on those comparisons, it appears that both employees
were treated similarly. Furthermore, Plaintiff also had disciplinary actions taken against her for -■
her lack of candor, and speaking rudely to a passenger and a supervisor. There is no suggestion
that Deak had other disciplinary actions taken against him or that he committed a number of '
other work-related infractions as Plaintiff did. Simply put, Plaintiff has not alleged facts
plausibly suggesting she was treated more harshly than her Caucasian coworker; nor has she
alleged facts that race was a motivating factor in any disciplinary action taken against her.
Rather, she simply concludes that she was subjected to harassment, retaliation and racial
discrimination; The Court finds that Plaintiff fails to met the threshold burden of presenting a
prima facie case of race discrimination and her allegations are not sufficient to cross the
threshold of basic pleading requirements in federal court. See Fed. R. Civ. P. 8 (providing a
complaint must contain “a short and plain statement of the claim” made by “simple, concise, and
direct” allegations.); see also Morgan v. Church’s Fried Chicken, 829 F.2d 10. 12 (6th Cir. 1987)
(finding legal conclusions alone are not sufficient to present a valid claim, and the district court
is not required to accept unwarranted factual inferences).
Finally, even when the Court construes Plaintiffs claim as being brought under Title VII,
Plaintiff to meet the prerequisites required bring this suit in federal court. Title VII requires a

9

Case: 4:19-cv-01676-BYP Doc #: 4 Filed: 12/23/19 10 of 11. PagelD #: 111

plaintiff alleging employment discrimination to file a timely charge of discrimination with the
Equal Employment Opportunity Commission (“EEOC”) before bringing suit in federal court.
McDonnell Douglas Corp. v. Green, 411 U.S. 792, 798 (1973). When a charge of discrimination
is filed, the EEOC must investigate the complaint in order to determine whether there is
“reasonable cause to believe that the charge is true.” 42 U.S.C. § 2000e-5(b). If the EEOC
determines that the complaint has a reasonable basis, it will issue a right-to-sue letter to the
plaintiff.3 29 C.F.R. § 1601.28(b). A plaintiff must then obtain a right-to-sue letter from the
EEOC in order to file suit under Title VII in federal court. E.E.O.C. v. Frank’s Nursery &
Crafts, Inc., Ill F.3d 448, 456 (6th Cir. 1999); see also Party v. Mohawk Motors ofMich., Inc.,
236 F.3d 299, 309 (6th Cir. 2000). Finally, Plaintiff has 90 days after receiving her right-to-sue
letter from the Equal Employment Opportunity Commission (“EEOC”) to bring the action in
federal court. Page v. Metro. Sewer Dist. ofLouisville & Jefferson Cty., 84 F. App’x 583, 584
(6th Cir. 2003).
Plaintiff s last day of work with TSA was April 20, 2016. And she states the case was “in
EEOC proceedings until August of 2018.” ECFNo. 1 at PagelD #:4. Nothing in the record
indicates that Plaintiff requested or received a right-to-sue letter from the EEOC

a “condition

precedent to filing an action in federal court.” Page, at F. App’x 84 at 585. However, even if
Plaintiff were to have produced a right-to-sue letter at the filing this action, the Complaint would
be dismissed as untimely. Id. (finding plaintiffs complaint to be untimely where she failed to

3 If the EEOC does not issue a right-to-sue letter within 180 days after the charge of
discrimination is filed, the plaintiff may request such a letter. 29 C.F.R. $ 1601.28(a).
10

Case: 4:19-cv-01676-BYP Doc#: 4 Filed: 12/23/19 11 of 11. PagelD#:112

file the case in federal court within ninety days from receipt of an EEOC right-to-sue letter).
Plaintiff filed her Complaint on July 23, 2019, nearly one year from the conclusion of the EEOC
proceedings. Plaintiff has not presented the Court with evidence that equitable reasons exist to
excuse her failure to comply with the prerequisite to filing her lawsuit. Equitable tolling, waiver,
and estoppel are available only in “compelling circumstances which justify a departure from
established procedure.” Puckett v. Tenn. Eastman Co., 889 F.2d 1481 (6th Cir. 1989) (affirming
district court dismissal where plaintiff did not present reason to justify thd tolling requirements in
Title VII action). Accordingly, if construed as a Title VII claim, Plaintiff s action must be
dismissed.
IV. Conclusion
Accordingly, Plaintiffs Application to Proceed In Forma Pauperis (ECF No. 2) is
granted and this action is dismissed pursuant to 28 U.S.C. $1915(e). The Court certifies,
pursuant to 28 U.S.C. $ 1915(a)(3), that an appeal from this decision could not be taken in good
faith.
IT IS SO ORDERED.

December 23, 2019
Date

/s/ Benita Y. Pearson
Benita Y. Pearson
United States District Judge

11

